<html>
<title> - EMERGING CONTAMINANTS AND ENVIRONMENTAL MANAGEMENT AT DEPARTMENT OF DEFENSE INSTALLATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-70]
 
  EMERGING CONTAMINANTS AND ENVIRONMENTAL MANAGEMENT AT DEPARTMENT OF 
                         DEFENSE INSTALLATIONS

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 12, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

38-034 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


  


                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             JO ANN DAVIS, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
ROBERT A. BRADY, Pennsylvania        MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                JOHN M. McHUGH, New York
MADELEINE Z. BORDALLO, Guam          HOWARD P. ``BUCK'' McKEON, 
MARK UDALL, Colorado                     California
DAN BOREN, Oklahoma                  ROBIN HAYES, North Carolina
NANCY BOYDA, Kansas                  FRANK A. LoBIONDO, New Jersey
CAROL SHEA-PORTER, New Hampshire     TOM COLE, Oklahoma
JOE COURTNEY, Connecticut            ROB BISHOP, Utah
DAVID LOEBSACK, Iowa                 CANDICE S. MILLER, Michigan
GABRIELLE GIFFORDS, Arizona          TRENT FRANKS, Arizona
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
                Dave Sienicki,Professional Staff Member
                Eryn Robinson, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                    Sarah Schaffer, Staff Assistant























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, July 12, 2007, Emerging Contaminants and Environmental 
  Management at Department of Defense Installations..............     1

Appendix:

Thursday, July 12, 2007..........................................    17
                              ----------                              

                        THURSDAY, JULY 12, 2007
  EMERGING CONTAMINANTS AND ENVIRONMENTAL MANAGEMENT AT DEPARTMENT OF 
                         DEFENSE INSTALLATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Jones, Hon. Walter B., a Representative from North Carolina, 
  Readiness Subcommittee.........................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Beehler, Alex A., Assistant Deputy Under Secretary of Defense 
  (Environment, Safety, and Occupational Health).................     3
Stephenson, John B., Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................     5

                                APPENDIX

Prepared Statements:

    Beehler, Alex A..............................................    43
    Stephenson, John B...........................................    21

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Bishop...................................................    74
    Ms. Bordallo.................................................    73
    Mr. Loebsack.................................................    74
    Mr. McKeon...................................................    72
    Mrs. McMorris Rodgers........................................    71
    Mr. Ortiz....................................................    67
    Mr. Taylor...................................................    74
  EMERGING CONTAMINANTS AND ENVIRONMENTAL MANAGEMENT AT DEPARTMENT OF 
                         DEFENSE INSTALLATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                           Washington, DC, Thursday, July 12, 2007.
    The subcommittee met, pursuant to call, at 2:07 p.m. in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. This hearing will come to order. I thank our 
distinguished witnesses for appearing before this subcommittee 
today to talk about our environmental restoration programs.
    The Department has faced a daunting task of addressing 
environmental contamination in a variety of bases, both active 
and closed, for many years. In some cases, contamination dates 
back to the Revolutionary War. But the fact remains that the 
costs to complete the cleanup of known contaminants exceed $32 
billion. After putting nearly $1.9 billion toward these 
requirements in fiscal year 2008, the Department estimates the 
overall cost of cleanup known as contaminants is expected to 
increase in future years. It is not in the Department's best 
interests to conform to the minimum cleanup goals just to avoid 
litigation and to establish a formal cleanup goal by the year 
2061 because of fiscal limitations. That is not how a great, 
free Nation operates.
    This strategy is flawed, irresponsible, and will place 
additional environmental burdens on the Department in the 
future. To the Department's credit, they have done a good job 
in determining a risk-based strategy of environmental cleanup, 
which could be a useful roadmap to apply scarce resources. 
Unfortunately, it appears that the Department has elected to 
give highest priority to funding cleanup at active 
installations.
    The Department must understand that the environmental 
contamination left by our forefathers is just as important to 
clean up as the environmental contamination left by today's 
force. Applying varying cleanup goals to active bases, Base 
Realignment and Closure (BRAC) bases, and closed bases is 
losing support in the local communities that have strongly 
supported our bases in the past. The Department's current 
management strategy for perchlorate--and I hope I pronounce it 
right--or rocket fuel contamination is insufficient.
    It has been reported that the Department and National 
Aeronautics and Space Administration (NASA) are responsible for 
90 percent of production in the United States. While it is 
apparent that the Department has contributed to the overall 
rocket fuel contamination, the Department seems to be applying 
sufficient Research and Development (R&D) funding to better 
characterize the nature of the source. Yet the Department has 
not performed a comprehensive review at former defense sites 
and has not fully identified the full extent of rocket fuel 
contamination to be cleaned up.
    The Department must continue to provide a serious review of 
former defense sites and provide the necessary funding to 
restore trust in the Department's ability to be responsible 
environmental stewards.
    As for Trichloroethylene (TCE) contamination, the 
Department has a long history of using and cleaning it up. 
However, unlike rocket fuel contamination, TCE contamination 
limits were set by Environmental Protection Agency (EPA) way 
back in 1989. And it is my understanding that the Department 
has said it honored those limits since 1989. Doctors say new 
scientific information indicates that the exposure pathways and 
health impacts on TCE may not yet be fully understood. I am 
concerned that it may be years before this new information 
could be incorporated into new regulatory standards.
    So I am interested in hearing from you today how the 
Department is responding to TCE's uncertain regulatory 
requirement.
    The Chair now recognizes the distinguished gentleman from 
North Carolina, my friend Mr. Jones, for any remarks he would 
like to make. Mr. Jones.

STATEMENT OF HON. WALTER B. JONES, A REPRESENTATIVE FROM NORTH 
                CAROLINA, READINESS SUBCOMMITTEE

    Mr. Jones. Thank you, Mr. Chairman. This is an important 
and timely hearing. It highlights the difficult policy and 
budgetary issues involved in environmental stewardship, as well 
as the human element. By law, Federal agencies are now required 
to manage lands under their jurisdiction. Before these laws 
were enacted, the Department of Defense (DOD) and the military 
conducted environmentally harmful activities for some years. 
Now the requirements present an immediate and expensive 
liability to DOD. With each base closure round and each new 
emerging contaminant discovery, the bill grows larger.
    For that reason, DOD continues to budget annually for 
environmental cleanup at former defense sites, BRAC sites, and 
active installations. Cleanup is very expensive, and the sites 
are numerous. Nevertheless, human health is paramount and must 
be protected against known hazards. All of us are very 
sympathetic to those harmed through no fault of their own. It 
is especially aggrieving when the harm is caused through the 
careless actions of the Federal Government.
    In the case of Camp Lejeune, which I have the privilege to 
represent, I find it extremely distressing that young Marine 
families were required to live in substandard housing in the 
1980's, supplied by contaminated water. It is clear that some 
children born to mothers living at Camp Lejeune at the time 
were affected. However, it is difficult to prove which children 
were harmed by the contaminated water and which had health 
difficulties unrelated to TCE. I know the matter of individual 
tort claims is under review, and I have no wish to interfere in 
that process.
    However, I urge the witnesses here today to do everything 
they can to prevent such tragedies in the future. We must act 
aggressively to try to mitigate immediate danger to military 
families. Our installations are home to our military families 
and military members. Those who volunteered to serve will live 
and train there. They expect to be safe during their brief 
return from missions overseas. Those in uniform face enough 
hazards when deployed. They should not be placed in harm's way 
here in America.
    Mr. Chairman, I want to thank you, as I close, for holding 
this hearing, and I look forward to our witnesses. And may we 
continue to do what is right for those in uniform. I yield 
back.
    Mr. Ortiz. Thank you so much.
    We are very happy to have our witnesses with us today. And 
we have the Honorable Alex Beehler, Assistant Deputy Under 
Secretary of Defense for Environment, Safety and Occupational 
Health, Department of Defense; and Mr. John Stephenson, 
Director of Natural Resources and Environment, Government 
Accountability Office. And, without objection, the witnesses' 
prepared statements will be accepted for the record. And Mr. 
Secretary Beehler, whenever you are ready to start with your 
testimony.

STATEMENT OF ALEX A. BEEHLER, ASSISTANT DEPUTY UNDER SECRETARY 
    OF DEFENSE (ENVIRONMENT, SAFETY AND OCCUPATIONAL HEALTH)

    Secretary Beehler. Thank you very much, Chairman Ortiz, 
Congressman Davis, and distinguished members of the 
subcommittee. I appreciate the opportunity to appear before you 
today to discuss the Department of Defense activities 
associated with environmental restoration and emerging 
contaminants.
    The Department is committed to cleaning up property and 
protecting human health in the environment from contamination 
resulting from past military activities, while being a good 
steward of both the environment and the Federal budget. 
Department of Defense (DOD) has and will continue to comply 
with applicable Federal and state standards.
    The Defense Environmental Restoration Program, DERP, 
involves 31,000 sites at 4,600 active installations, BRAC 
installations and Formerly Used Defense Sites (FUDS) 
properties. Comprehensive Environmental Response, Compensation, 
and Liability Act (CERCLA) and its implementing regulation, the 
National Contingency Plan, provide the framework for DOD's 
remediation efforts.
    Emerging contaminants are addressed under DERP, using the 
same CERCLA process. The DERP uses a worst-first cleanup 
philosophy that consistently tackles the higher-risk sites to 
achieve the greatest risk reduction. DOD considers emerging 
contaminants as those contaminants for which there is no 
established toxicity values or standards, or the toxicity value 
of standards are evolving due to new science. DOD has been 
proactively engaged with EPA and the State regulators on how to 
respond to emerging contaminants under such circumstances.
    By fiscal year 2006, we achieved remedy in place or 
response complete at 83 percent of the 28,000 installation 
restoration program sites with non-munitions contamination.
    In 2001, the Department established the Military Munitions 
Response Program, composed of some 3,300 sites, and by fiscal 
year 2006 we completed response action at 25 percent of those 
sites.
    DOD relies on perchlorate as an oxidizer in explosives, 
pyrotechnics, rocket fuel, and missiles, because it is the most 
efficient and stable propellant oxidizer available. There are 
two misperceptions about DOD and perchlorate. First, while DOD 
is a major purchaser of domestic perchlorate, our facilities do 
not appear to be the major source of contamination of drinking 
water based on the data reviewed to date. While DOD does have 
sites with perchlorate releases, these are mostly confined on 
base, and DOD is taking appropriate response actions, in 
consultation with EPA and State authorities.
    Over the past several years, research has revealed a number 
of significant natural and non-DOD man-made sources of 
perchlorate, such as road flares, fireworks, certain natural 
mineral formations, fertilizers, herbicides, and even chlorine 
bleach that can cause low-level widespread contamination. Now 
that an ability to differentiate between different sources of 
perchlorate exists, responsible parties can be identified with 
greater confidence.
    Second, it has been claimed that DOD will not respond to 
perchlorate unless a maximum contaminant level is established. 
In fact, DOD has been and will continue to take appropriate 
response actions for perchlorate, in consultation with EPA and 
State regulators. My written testimony contains seven such 
examples.
    Moreover, DOD has engaged a three-prong approach to risk 
management of perchlorate:
    One, assessing potential releases, where I note the vast 
majority of samples taken at these sites are either non-detects 
or levels well below the current EPA reference dose.
    Two, taking appropriate response actions where necessary.
    And three, investing millions of dollars in finding 
substitutes to eliminate perchlorate for military use, such as 
in pyrotechnic flare compositions.
    As for TCE, a solvent for cleaning metal parts, it became a 
common contaminant in groundwater due to past poor disposal 
practices by industry and DOD. Currently, 424 installations and 
FUDS properties have ongoing environmental restoration 
activities where TCE has been identified. Also, the Department 
over the last 10 years has found suitable replacements with 
other types of cleaning agents, such as citrus-based agents, 
mineral oils, and other non-toxic solutions.
    In conclusion, across DOD we are going beyond compliance, 
to ensure better sustainability of our assets and our mission 
capabilities. We will continue to take appropriate response 
actions for perchlorate, TCE, and other contaminants. We 
believe that DOD has acted responsibly as the science and 
understanding of perchlorate and other contaminants has 
evolved.
    In closing, Mr. Chairman, I sincerely thank you for this 
opportunity to highlight the Department's response activities 
related to chemical contaminants.
    [The prepared statement of Mr. Beehler can be found in the 
Appendix on page 43.]
    Mr. Ortiz. Mr. Stephenson.

 STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Thank you, Mr. Chairman, Mr. Loebsack. I am 
pleased to be here to discuss Government Accountability 
Office's (GAO) work on the Department of Defense's activities 
associated with emerging contaminants and the cleanup of its 
hazardous waste sites. DOD faces a daunting task of cleaning up 
thousands of active, closed, and formerly used military 
installations across the country. Many of these sites are 
contaminated with toxic substances in soil, water, or 
containers such as underground storage tanks, ordnance, and 
explosive and unsafe buildings. Identifying and investigating 
these hazards will take decades, and cleanup will cost many 
billions of dollars.
    Contamination problems at formerly used defense sites has 
economic consequences for individual communities, as the sites 
are now owned by States, local governments, and individuals for 
use for parks, schools, farms, and homes. Also, while many of 
the military facilities closed under DOD's BRAC program have 
been cleaned up and transferred to local communities for 
redevelopment, some have been awaiting cleanup and conversion 
for many years, and this delays the ability to replace jobs 
that were lost as a result of the base closures.
    My testimony today addresses two specific emerging 
contaminants, perchlorate and TCE, and draws on our reports on 
TCE contamination at Camp Lejeune, efforts to address 
perchlorate nationwide, cleanup at formerly used defense sites, 
as well as updated information from DOD, EPA, Food and Drug 
Administration (FDA), and the Centers For Disease Control 
(CDC).
    In summary, we found that while DOD classifies both TCE and 
perchlorate as emerging contaminants, there are important 
distinctions in the extent to which they are regulated and what 
is known about their effects on human health and the 
environment. TCE, as has been mentioned, is a degreaser for 
metal parts that DOD has used widely for industrial and 
maintenance processes for decades. It continues to be found in 
underground and surface water sources. TCE has been found to 
cause dizziness, headaches, nausea, unconsciousness, cancer, 
and even death in extreme exposures. EPA adopted a TCE drinking 
water standard of five parts per billion, as you mentioned, in 
1989, and DOD has used this standard for requiring cleanups at 
installations such as Camp Lejeune, where 46 separate sites 
have been identified for cleanup.
    TCE is a big issue for DOD because of its widespread use. 
It has been found in over 1,400 defense sites, over half at 
concentrations exceeding the 5 parts per billion standard.
    Perchlorate, as you mentioned, is a primary ingredient and 
propellant used in rockets and missiles, has been found in 
drinking water, groundwater, surface water, and soil across the 
United States. However, EPA has in this case not yet set a 
drinking water standard, citing the need for additional 
research, and notwithstanding recent CDC and FDA studies 
showing that perchlorate can cause fetal development problems 
in pregnant women, and that there is extensive low-level 
perchlorate contamination in the Nation's food supply.
    In the absence of a Federal perchlorate standard, 8 states, 
including Texas and California, have established non-regulatory 
action levels or advisories for perchlorate ranging from 1 part 
per billion to 18 parts per billion, all below the National 
Academy of Sciences suggested 24 parts per billion.
    DOD adopted a new perchlorate policy in December of 2006 
that applies broadly to DOD's active and closed installations, 
and uses the National Academy's 24 parts per billion action 
level to guide its testing and cleanup efforts. DOD has found 
perchlorate above 4 parts per billion at 135 active bases or 
thereabouts, but only 8 bases had concentrations above the 24 
parts per billion action level. So the level which EPA 
ultimately sets a perchlorate standard, if they do at all, will 
be critical to DOD in terms of cleanup expense.
    Interestingly, several states have used their authorities 
to require DOD cleanups. For example, Texas required the Navy 
to reduce perchlorate levels and wastewater discharges at the 
McGregor Naval Weapons Industrial Reserve.
    In conclusion, Mr. Chairman, DOD faces significant 
challenges and potentially huge costs in addressing emerging 
contaminants, particularly in light of new scientific 
developments and regulatory uncertainty surrounding these 
chemicals and materials. DOD has stated further efforts to 
address perchlorate would require a regulatory standard from 
EPA. The fact some States have moved to create such standards 
complicates the issue by presenting DOD with varying cleanup 
standards across the country.
    Until EPA acts, DOD will continue to face questions about 
whether its efforts to control perchlorate contamination are 
sufficient to protect human health and the environment.
    Mr. Chairman, this concludes my statement. I will be happy 
to take questions.
    [The prepared statement of Mr. Stephenson can be found in 
the Appendix on page 21.]
    Mr. Ortiz. Thank you so much for your testimony.
    Dr. Beehler, you know all known high-risk contamination 
sites should be speedily cleaned. However, the Department has 
elected to place a priority of funding toward active 
installations and much lower priority toward former Defense 
sites. Can you explain why there is a difference in this 
approach between the active sites that we have plus the ones 
that have been like bases being closed in the past?
    Secretary Beehler. Mr. Chairman, several points. One is 
that the percentage spent on high-risk active installations 
related sites is the same percentage that is spent on FUDS 
high-risk sites within the total amount that is spent on FUDS 
versus the total amount that is spent on active installations.
    The second point is that in fact one must look at 
individual services. For instance, the Navy makes no 
discrimination really. They continue to spend money on the 
high-risk sites across the board, whether it is FUDS or the 
active installations.
    As to the Army, they over the last several years, in order 
to be the most efficient they could be as far as achieving 
cleanup and cost, they went to a performance-based contract 
approach, whereby this fiscal year 30 percent of all of their 
cleanup contracts are or are about to be performance-base 
oriented. And what that allows them to do is when they are in a 
given site--for example, Aberdeen Proving Ground has 253 sites, 
you know, some high risk, some medium risk, some low risk--
under the performance-based contracting, there is flexibility 
to use economies of scale. If there is, for instance, a given 
soil contamination interest that may cover--cut across all 
three levels of sites, then it is perceived to make the most 
sense to deal with that issue at all of those related sites 
within Aberdeen Proving Grounds.
    So there is this balancing between the triage effect of 
making sure that you are dealing with the worst first, as I 
alluded to in my testimony, and balancing that with the 
economies of scale that can be engendered at sites such as 
Aberdeen that have all three different categories.
    The other thing, of course, about FUDS sites is there are 
greater challenges that the military face. The military does 
not own the property, in many instances has had no connection 
with the property for decades. They are dealing with current 
owners of the property and also with interests from State and 
local regulators and communities as to how best to clean up the 
properties.
    So it is not an exact science, for the reasons that I 
suggest.
    Mr. Ortiz. You know--and the reason that I ask this 
question is because as times change, there might be a necessity 
to open new bases. And when we find out that there are certain 
communities who have never had their cleanup, other communities 
might be hesitant to receive our military. And this could 
create problems.
    So you say there is a goal that maybe between 2014, 2020, 
that maybe----
    Secretary Beehler. Mr. Chairman, we are always pushing. The 
reason that these goals are set is sort of to establish 
benchmarks. And then they are annually reviewed to see where 
the services are in not only meeting the goals, but actually 
doing better, given--and this would certainly greatly apply to 
a FUDS situation--enhanced technology, to both find out what 
the contaminants are, as well as how best to remove them. And 
we certainly rely heavily on enhanced research to help speed 
things up and to do a more effective approach.
    We have also found, certainly the Army has, that by going 
with performance-based contracts they have found the cleanup is 
done more efficiently, more effectively, more expeditiously, 
and we would expect that that would carry forth in the dealing 
of cleanup of FUDS sites.
    Mr. Ortiz. Because you know, we want to be sure that we 
have recruitment, retention. It is just like the Veterans 
Administration (VA) hospital, when they cannot treat the 
veterans coming back from the war. I think this has an impact 
also in that if I had a son or daughter in the military, I 
don't want to have them go to a place where they are going to 
be drinking contaminated water. And you know, we want to work 
together, and I hope by working with the Congress and DOD that 
we can come up with a solution to hopefully expedite to do some 
of this cleaning up.
    Secretary Beehler. Well, I certainly appreciate that on 
behalf of the Department of Defense. And we certainly do want 
to work as closely as possible with Congress to achieve that 
goal.
    I might add, apropos your comment, that obviously on active 
installations we do have 24/7 responsibility of the service men 
and women and their families, which once again we want to make 
sure that contamination is effectively dealt with in that venue 
as well.
    Mr. Ortiz. Thank you.
    Mr. Loebsack, you have any questions?
    Mr. Loebsack. Thank you, Mr. Chairman. Thanks to you as 
well, Mr. Stephenson and Mr. Beehler. I am new to the Congress. 
And when I got on the Armed Services Committee, you know, of 
course I had to choose which subcommittees I wanted to be on. 
And the district in Iowa, we don't have bases as such right now 
much at all. But I do have, in my district in Middletown, the 
Iowa Army Ammunition Plant. And I thought about, while I was 
running for this office, I had heard stories about some of the 
contamination problems at that plant. And I am on this 
subcommittee in no small measure because I want that to be 
dealt with while I am in Congress at some point, and the 
problems.
    And it has been the site of an installation restoration 
program (IRP), since 1994. The groundwater and the soil at the 
plant are contaminated with both perchlorate and 
trichloroethylene. To date, the Army Environmental Center has 
spent about $90 million--that is the data that I have at 
least--on the cleanup effort. The restoration of the site is 
still not complete. And it is projected to cost an additional 
$11 million over the course of the next 5 years.
    And I suppose even more concerning for me and many of the 
people there at the plant and the areas, sites, within the 
plant's compound that were not originally selected for cleanup 
in 1994, but have since been found to be in need of remediation 
as a result of the plant's historical activities, are not 
included in the cleanup effort. Meaning that no money has been 
made available for the restoration.
    So I just want to ask at the outset, Mr. Beehler, if you 
have any direct knowledge of the cleanup efforts at the Iowa 
Army Ammunition Plant. I know there are many facilities around 
the country, but do you have any specific information on this?
    Secretary Beehler. Thank you, Congressman. As I think you 
know, generally the cleanup issues are handled on an 
installation-by-installation basis, and then as an oversight by 
the service particularly involved with the effort. I do have 
some minimum knowledge. I know, for instance, that a consortium 
led by the University of Iowa with other universities and other 
entities have a prototype trial project involving 
phytoremediation, which at this point is proving to be 
effective, and hopefully therefore can be expanded to have a 
more efficient cleanup.
    And as to the other aspect that you mentioned of sites or 
parcels that have been found to be contaminated but have not 
been included in the cleanup site, I don't have any direct 
knowledge about that. I would be happy to take that back to the 
Army, provide you with more detailed information.
    I can say that obviously--and I am sure you know this as 
well--that the remediation is done in accord with the State and 
Federal regulators, and therefore I can only assume at this 
point that there is a good reason that the regulators have 
concurred in as to why those parcels have not yet been included 
in the cleanup. But I will take that back for the record and 
get more detail for the committee.
    Mr. Loebsack. That is all I request.
    [The information referred to can be found in the Appendix 
beginning on page 74.]
    Mr. Loebsack. I really appreciate that very much, your 
cooperation. I look forward to working with you on it in the 
future. Thank you.
    Secretary Beehler. Thank you, sir.
    Mr. Ortiz. Chairman Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. Gentlemen, the only 
thing that I would ask of you is--I am from down south 
Mississippi. We got clobbered a couple years ago with the 
hurricane. And I would remind you both when I called the Chief 
of Naval Operations (CNO) and the Chief of the National Guard 
Bureau and said we desperately needed help, both of them's very 
first words were, how are your bases? Where can I put people?
    And I got to know, just being human nature, that as you 
look at these problems there is going to be a tendency to say, 
you know, if we shut down our water well and just use city 
water maybe we can eliminate some of these problems.
    What I would definitely encourage you to keep in mind is 
that when the acts of terror that the chiefs have told us are 
going to happen in the States happen here, the same response is 
going to be coming from the Chief of the Guard Bureau and the 
CNO and others, okay; we got to get people in there. Where can 
we put them? Okay, we can put them on the bases. Can we feed 
them? Is there a place where they can take a shower, et cetera?
    And so I would just encourage you, to the greatest extent 
possible, to keep the bases self-sufficient when it comes to 
things like their water wells, when it comes to things like 
electrical generation, when it comes to things like even sewage 
treatment. I know that everything, all the pressure is on you 
to save money, say farm it out to the cities. But the cities in 
the wake of those storms could not take care of themselves, and 
the bases really did become where the folks rode to the rescue 
from.
    And I just want to throw that at you because it is 
something that we have been through that other people are 
eventually going to go through. And we should not be giving 
away for short-term gain, like to avoid a pollution problem, we 
should not be giving away national assets. Because each one of 
these assets--any one of those bases could be called upon to do 
the same thing that our bases in south Mississippi did two 
years ago.
    Secretary Beehler. Sir, I appreciate your comments. As you 
may know, the Defense Science Board has an energy task force 
that is about in the next couple of months to issue their 
report after a year's study. And one of the things that 
undoubtedly they will focus on is independence of military 
bases on energy, on utilities such as water, the very issues 
that you are raising. And we certainly anticipate that there 
will be significant push within DOD to attempt to achieve as 
much independence as possible in these areas per responsive to 
the recommendations that will emanate out of the task force. 
Once again, we have to wait and see for further detail because 
they haven't issued their report.
    Mr. Taylor. Sir, if I may, because my memory of the initial 
moves by Secretary Rumsfeld--I realize this is six years ago 
and he is no longer the Secretary--but a lot of the people that 
he brought to the table are still at the table. One of his 
moves was, to the greatest extent possible, was to farm out 
those responsibilities. If Keesler can get their water from the 
city of Biloxi, have them do so, et cetera.
    Again, hell, I could not have visualized how catastrophic 
that storm would have been, but I can now. And so the only 
point I am trying to make is when you make these decisions, I 
would hope that you would keep that in mind. Because like I 
said, whether it happens in Los Angeles, San Diego, wherever, 
those bases are going to--their bases are going to need to be 
every bit as self-sufficient as Keesler and the Naval 
Construction Battalion bases were for the benefit of south 
Mississippi. And I would just ask you, despite all the 
budgetary pressures that are telling you otherwise, to try to 
the greatest extent possible to protect those resources that 
the taxpayers have already paid for.
    Secretary Beehler. Yes, sir. Thank you.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Ortiz. My good friend, Robin Hayes. You have any 
questions, Robin?
    Mr. Hayes. I will pass, Mr. Chairman.
    Mr. Ortiz. Thank you. One of the reasons we are here is 
because we do, in my opinion, have a serious problem. But Mr. 
Beehler, you indicated in your statement the Department has 
identified something like, what, $32 billion worth of 
environmental cleanup requirements? Yet the request that has 
been made for funding for fiscal year 2008 is only $1.8 
billion. I was just wondering, do you have any input as to what 
the Department will have to--the request that they make to the 
Congress for funding?
    Secretary Beehler. I am sorry, sir, do I have any input?
    Mr. Ortiz. Input as to how much money you think not only 
coming from DOD, but to come to you guys who are the experts, 
and to say how much money do you think we should put in?
    Secretary Beehler. Well, with all candor, sir, those 
decisions are made at a higher level than mine. I can tell you 
that the $1.8, $1.9 billion cleanup level per year has been 
gradually increasing or being held steady over the course of 
the years. So it is sort of a consistent, and, it is my 
understanding, has been deemed, under all the circumstances and 
with various competing interests involved, the best level to 
get the job done given other competing circumstances.
    And I believe that, for instance, to date--the program 
started after 1986--so in roughly 20 years in today's dollars 
at least $32 billion has been spent on cleanup. And we are at 
roughly about 80-some percent response complete or in place.
    Mr. Ortiz. I think that when we have identified at least, 
you know, $32 billion worth of cleanup problems that we have, 
1.9 or 1.8 is not sufficient to reduce the existing 
contamination that we have. So I am just hoping--and I know 
that we have some other priorities. I know we have got two wars 
going on at the same time. But it is a very serious problem.
    I know that at least one of the bases that we have in Texas 
that you are probably familiar with is the one in San Antonio. 
And I was just wondering what efforts has the Air Force taken 
to moderate potential problems with disease resulting from 
exposure to harmful chemicals among former civilian employees 
and military personnel who previously worked at the Kelly Air 
Force Base?
    Secretary Beehler. I am sorry; is this Kelly Air Force 
Base?
    Mr. Ortiz. Kelly Air Force Base, yes, sir.
    Secretary Beehler. As I understand it, there has been about 
$300 million spent by the Air Force to clean up Kelly. I 
believe that Kelly is basically a BRAC site, so that means that 
the base effectively has been closed. They have taken 
leadership and worked very closely with the communities in 
addressing the TCE issue, which I believe they spent $70-some-
million focused on that issue alone, working closely with the 
city health municipal authorities, making sure that TCE no 
longer contaminates the drinking water of the surrounding 
neighborhoods. And as I understand it, the progress being made 
now is in the right direction.
    Mr. Ortiz. Because if I am correct--now, I could be wrong, 
but I understand that some of this contamination has spread to 
other communities which are not under the in-site existing 
military base. And what is being done to have the people who 
reside outside the areas of the military jurisdiction? Have 
they been advised that that area has been contaminated?
    Secretary Beehler. Well, my understanding is that there has 
been, at least in recent times, a very effective communication 
with the local communities about contamination issues and 
problems. And in fact there is, as I recall, two plumes which, 
through a wide variety of rather creative forward thinking--and 
once again with the approval of the local communities of a 
permeable barrier approach, have actually shrunk the respective 
plumes by half in the space of about three or four years. Much 
quicker than if they had engaged in pump and treat, which is 
the standard remediation that has historically been proven.
    So, as I say, it seems to be headed, for all those reasons, 
in the right direction.
    Mr. Ortiz. Mr. Taylor.
    Mr. Taylor. Again just for my memory, what have we spent on 
environmental restoration at bases that have been closed by 
previous rounds of BRAC to date, and what is your estimated 
amount to clean up the bases that have been identified to be 
BRAC'd by the panels that have already met and made decisions?
    Secretary Beehler. I hope I am going to answer your 
question correctly.
    Mr. Taylor. I will repeat it, because I tend to mumble. How 
much have we spent so far? And there are still installations 
that have been targeted for closure that have either not been 
closed or have not--or the environmental restoration has not 
taken place. So what is your estimate that you will have to 
spend just to fulfill what has been mandated by the rounds of 
BRAC that have already occurred?
    Secretary Beehler. I think there are roughly--if you 
include all rounds of BRAC, including the first four plus now 
the five, as best we understand the five, which is somewhat a 
work in progress----
    Mr. Taylor. Sure.
    Secretary Beehler [continuing]. Because, of course, these 
are relatively newly added to the mix, it is roughly $3.9 
billion needed to complete.
    Mr. Taylor. And what has been spent so far?
    Secretary Beehler. What has been spent so far? I want to 
say around $9 billion so far.
    Mr. Taylor. May I make this request of you?
    Secretary Beehler. I will take that back for the record.
    Mr. Taylor. Would you take it for the record and answer for 
the record?
    Secretary Beehler. I will, and give you the support.
    Mr. Taylor. Thank you very much, sir.
    [The information referred to can be found in the Appendix 
beginning on page 74.]
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Stephenson, in the absence of an EPA 
standard, do you think it is prudent for the Department to move 
forward and clean up sites contaminated with rocket fuel 
contamination?
    Mr. Stephenson. Well, I think they are moving forward using 
the National Academy's 24 parts per billion. But I think it is 
incumbent upon EPA to act first. They need to set a drinking 
water standard, and then DOD will know with certainty what the 
cleanup standard is. And there is a lot of support for that. 
The American Water Works Association, who represents all the 
private drinking water facilities and public drinking water 
facilities, has encouraged EPA to do so. So I think they 
actually need that regulatory standard in order to do a lot 
more.
    Mr. Ortiz. Does any other member have any questions? I know 
you just came in. I know you are full of questions.
    Mr. Bishop. Well, I am, and I feel chagrined here, because 
usually I have a good reason for either being late or missing a 
committee meeting. And this time I have no reason except I just 
forgot the time. So I apologize. And I am assuming you may have 
covered a lot of these issues. Can I just ask four questions? 
And if it has already been covered will you just stop me?
    Mr. Ortiz. You go right ahead. You are a very important 
member of this subcommittee.
    Mr. Bishop. If I was that important I wouldn't be sitting 
at the end of the aisle here.
    Mr. Stephenson, if I can start with you-- and you were 
probably talking about as I came in--but how many sites 
catalogued in the government accounting or the GAO's May 2005 
report are contaminated sites nationwide where naturally 
occurring sources? Does that make sense?
    Mr. Stephenson. Yeah, we identified nearly 400 in total. Of 
those, there were upwards of 200 of those sites where it 
couldn't be determined. And we think it was reasonable to 
assume that around 100 of those are naturally occurring. Most 
of the naturally occurring perchlorate is in the desert 
southwest, in the high plains of Texas.
    Mr. Bishop. Based on any information that has come out 
since that report, do you have any kind of ballpark estimate of 
how many sites exist nationwide? Naturally occurring.
    Mr. Stephenson. No. That is the best information there is 
available. It is not easy to identify perchlorate sites. We had 
to work with EPA and DOD and many local communities and States 
to come up with that 400-site estimate.
    Mr. Bishop. And once again, you probably said this already, 
but I apologize for that. Of the 395-400, roughly, sites that 
you have that have been identified in that 2005 report, how 
many are currently experiencing remediation activity?
    Mr. Stephenson. We don't know. It has been two years since 
that study. About 65 percent of those sites were DOD sites, so 
maybe Mr. Beehler can shed some light on that. But we have not 
updated that information since then.
    Mr. Bishop. Mr. Beehler, do you have anything to add on how 
many are going through remediation at the present time?
    Secretary Beehler. I am happy to take that for the record. 
I do know that EPA said that we have 34, I believe, Superfund 
sites, of which really one installation accounted for 11 of 
those sites where perchlorate had been found. And these would 
be sites listed on the National Priorities List.
    Now, that is not, I don't think, exactly the same question 
that you asked, but it is a related answer. But I would be 
happy to take that back for the record and provide you the 
information we have.
    Mr. Bishop. I would be appreciative of that.
    [The information referred to can be found in the Appendix 
beginning on page 74.]
    Mr. Bishop. If I could ask maybe two other questions. Once 
again, if they have been covered, I apologize profusely for 
that. And it is my understanding that many of the defense, the 
aerospace industries are not waiting for the EPA to set the 
drinking water standards for this particulate, and they are 
spending a lot of money doing that. Is the Defense Department 
working with the private industry and other public agencies to 
gain the benefit of this private sector knowledge and expertise 
in this particular issue in this contaminant remediation 
technology?
    Secretary Beehler. Absolutely. That is one of the 
cornerstones of what we are looking at. For instance, we spent 
a total to date of about $114 million for a whole range of 
efforts, such as research into substitutes, better pollution 
prevention approaches, new technologies for more effective 
cleanup, for instance, and more effective handling of 
perchlorate. And we have set up a directorate within our office 
as a long-term institutional basis to examine perchlorate and 
other emerging contaminants. The directorate regularly meets 
with industry folks, with health regulators, environmental 
regulators, both at the State, local, and Federal level, county 
folks, water experts, to make sure that there is the most 
effective knowledge share in figuring out how best to proceed 
in this in the most cost-efficient manner, using the best 
science and technology available.
    Mr. Bishop. I am very happy to hear that. Once again, you 
probably covered that in your testimony, but that is wonderful 
to know, because these industries are putting millions of 
dollars into the research in this particular area.
    One last question then, Mr. Chairman, and I will yield 
back.
    Mr. Ortiz. Go right ahead.
    Mr. Bishop. If the EPA were to determine that this 
perchlorate should not be regulated by the drinking water 
standards, what effect would that determination have on the 
Department of Defense's current or future remediation 
activities?
    Secretary Beehler. To the best of my knowledge, I think 
very little. I mean we have before us, we all have before us 
the various health concerns that have been presented by the 
National Academy of Science, by the CDC, Center For Disease 
Control and we--and also by past research done by EPA. And we 
at DOD have made a commitment to make sure that we get our arms 
around, effectively, perchlorate and effectively deal with it. 
Right now we are following the current EPA guidance, which EPA 
guidance established a reference dose of 24 parts per billion 
based on the research put forward by the--and the study done by 
the National Academy of Sciences. So we have used that figure 
as our point of departure for instructing the services to 
examine whether there is a perchlorate problem and how best to 
deal with it. And that is the way we will continue.
    The other thing is, EPA is only one part of the picture 
here as far as a regulator is concerned. The states have a 
significant role. And already--and this was mentioned earlier 
in the hearing--states have stepped out. Foremost is 
Massachusetts, that has set a standard for drinking water of 
two parts per billion. We fully expect other states to take, 
you know, positions one way or the other on this. And we want 
to be--and our feeling is to be ahead of the curve rather than 
behind the curve in dealing with this issue, to be most 
effective in handling the health issues, and to do it most 
efficiently and economically. And that is the way we will 
continue to proceed.
    Mr. Bishop. Thank you. I appreciate both of you for 
answering those questions that I did have. Thank you for your 
indulgence. And once again I apologize for my tardiness, Mr. 
Chairman.
    Mr. Ortiz. Thank you, Mr. Bishop. Thank you very much.
    Mr. Stephenson, please tell us about impact of human 
exposure to TCE in drinking water and vapors in the air, if you 
could.
    Mr. Stephenson. Our TCE knowledge base is really limited to 
Camp Lejeune, where we looked at uptake from drinking water 
only. The research on intake from vapor is relatively new--
well, not relatively new, but is ongoing, and it is not 
finalized yet. The fact that there is a drinking water 
standard, though, is we think obviously excellent. And the 
research on that continues. And, in fact, EPA may even make 
that standard more stringent if the evidence supports that.
    Mr. Ortiz. But we are working on it to come up with a 
system to----
    Mr. Stephenson. We are. There is ongoing research to study 
the intake from vapors as well as from drinking water. 
Breathing TCE is not good either.
    Mr. Ortiz. Mr. Beehler, I want to ask you the same 
question, but this has to do with vapors in the air. How do you 
address that?
    Secretary Beehler. Well, first we are following very 
closely the science and research that Mr. Stephenson has just 
alluded to. As he mentioned, there are several studies, 
recently the National Academy of Sciences, and in turn another 
panel of the National Academy of Sciences is studying Camp 
Lejeune. And I believe it is due out with a report in the next 
6 to 12 months.
    In the meantime, we are engaged in working groups with EPA 
and the State regulators on whatis--given the state of flux, if 
you will, of the science and health effects on vapor 
intrusion--what should be the smart thing to do here and now as 
we are awaiting additional research information?
    We are also stepping out on a site-specific basis, going 
ahead and specifically testing and monitoring for vapor 
intrusion, as appropriate. Some of the services have put out 
guidances on how to handle vapor intrusion issues at individual 
sites. DOD departmental-wide is going to put out a guidance in 
the very near future so that we get a minimum consistent policy 
on what to look for and how to handle vapor intrusion issues 
while we are waiting for the research to come in and EPA to 
decide what to do about this issue.
    And, finally, once again, there have been States who have 
set vapor intrusion regulatory limits. And, of course, we 
comply with those accordingly.
    Mr. Ortiz. Any other member have any other questions? If 
not, I know there are a lot of members who wanted to be here, 
but there is a lot of activities going on, and they will 
probably submit to you some questions for the record.
    And being no further business, this hearing stands 
adjourned. Thank you so much for your testimony.
    [Whereupon, at 3 p.m., the subcommittee was adjourned.]
     
=======================================================================
                            A P P E N D I X

                             July 12, 2007

=======================================================================
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 12, 2007

=======================================================================
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             
=======================================================================
             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             July 12, 2007

=======================================================================
     
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. In the absence of an EPA standard, do you think it is 
prudent for the Department of Defense to move forward and clean up 
sites contaminated with perchlorate?
    Mr. Stephenson. In the absence of a federal standard, at least 8 
states have established non-regulatory action levels or advisories that 
range from 1 part per billion (ppb) to 51 ppb of perchlorate. In 
addition, Massachusetts established a drinking water standard of 2 ppb, 
and California is in the final stages of rulemaking to establish a 6 
ppb standard. DOD certainly will have to move forward and clean up 
sites contaminated with perchlorate in those states.
    Our work detailed some of the significant challenges, and 
potentially large costs, that the Department of Defense (DOD) must 
address with regard to perchlorate.\1\ DOD's designation of perchlorate 
as an emerging contaminant, and January 2006 revisions to its 
perchlorate policy, reflects the department's recognition that the 
chemical has a significant potential impact on people and/or the 
department's mission. As we discussed in our April and July 2007 
testimonies, DOD has certain responsibilities with regard to 
contaminants that are regulated by EPA or state governments, but the 
department's responsibilities and cleanup goals are less definite for 
contaminants, such as perchlorate, that lack federal regulatory 
standards.\2\
---------------------------------------------------------------------------
    \1\ GAO, Perchlorate: A System to Track Sampling and Cleanup 
Results is Needed, GAO-05-462 (Washington, D.C.: May 20, 2005).
    \2\ GAO, Perchlorate. EPA Does Not Systematically Track Incidents 
of Contamination, GAO-07-797T (Washington, D.C.: April 25, 2007) and 
Environmental Contamination: Department of Defense Activities Related 
to Trichloroethylene, Perchlorate, and Other Emerging Contaminants, 
GAO-07-1042T (Washington, D.C.: July 12, 2007).
---------------------------------------------------------------------------
    The fact that some states have moved to create their own standards 
further complicates cleanup issues for DOD by presenting the department 
with varying standards across the country. Until a national perchlorate 
standard is adopted, DOD will continue to face differing requirements 
in different states and continuing questions about whether its efforts 
to control perchlorate contamination are necessary or sufficient to 
protect human health. Until EPA acts, we believe it is prudent for the 
department to have adopted a uniform perchlorate policy with sampling 
and cleanup criteria for both its active and closed installations. We 
also believe that DOD can do more to keep the public informed of its 
sampling and cleanup efforts for perchlorate and other emerging 
contaminants.
    Mr. Ortiz. Please tell us about the impact of human exposure to TCE 
from drinking water and from vapors in the air?
    Mr. Stephenson. According to the Department of Health and Human 
Services' (HHS) Agency for Toxic Substances and Disease Registry 
(ATSDR), trichloroethylene (TCE) is pervasive in the environment and is 
known or suspected to cause a range of health effects depending upon 
the level and length of exposure. Most people are likely to be exposed 
to TCE simply by drinking and breathing, but ATSDR also reported that 
TCE has been found in a variety of foods such as meats and margarine. 
HHS's National Health and Nutrition Examination Survey estimated that 
approximately 10 percent of the U.S. population has detectable levels 
of TCE in their blood as a result of these exposures.
    ATSDR's toxicological profile provides a summary of the known 
short- and long-term effects from drinking and breathing TCE. Drinking 
small amounts of TCE over long periods may cause liver and kidney 
damage, harm the immune system, and impair fetal development in 
pregnant women. Drinking large amounts may cause nausea, liver damage, 
impaired heart function, or death. With regard to breathing, ATSDR's 
profile states that small amounts of TCE may cause headaches, lung 
irritation, poor coordination, and difficulty concentrating, whereas 
large amounts may impair heart function and cause unconsciousness, 
nerve, kidney and liver damage, and death. However, there is less 
certainty about the long-term health effects from breathing small 
amounts of TCE on diseases such as cancer.
    ATSDR's profile noted that TCE is ``reasonably anticipated to be a 
human carcinogen,'' and the International Agency for Research on Cancer 
determined that TCE is probably carcinogenic to humans--specifically 
kidney, liver, and cervical cancers, Hodgkin's disease, and non-
Hodgkin's lymphoma--based on limited evidence of carcinogenicity in 
humans and additional evidence from animal studies. Although EPA's 
Integrated Risk Information System (IRIS) initially contained a 
carcinogenicity assessment, EPA withdrew it from IRIS in 1989. As such, 
EPA's IRIS database does not currently contain information on the 
health effects of TCE exposures. In 1998, EPA initiated a new TCE 
assessment but will not likely complete it until 2010, or later.
    Mr. Ortiz. Please provide the Committee with your recommendations 
for improvements in the management of environmental issues on DOD 
facilities?
    Mr. Stephenson. We recommend that DOD improve publicly available 
testing and cleanup information for emerging contaminants, including 
TCE, on its Web sites. During the course of our work, DOD did improve 
the information provided to the public about the results from its 
perchlorate testing program.\3\ In addition, we suggest that the 
Committee ask DOD and EPA to provide information about their joint work 
related to emerging contaminants, including (1) DOD involvement in EPA 
risk assessments, (2) DOD input into EPA regulations and IRIS updates, 
and (3) funding for studies that could advance their understanding of 
the health effects of emerging contaminants.
---------------------------------------------------------------------------
    \3\ See DOD's Materials of Evolving Regulatory Interest Team Web 
site, https://www.denix.osd.mil/denix/Public/Library/MERIT/merit.html, 
last accessed on September 5, 2007.
---------------------------------------------------------------------------
    Mr. Ortiz. Please describe how Environmental Management Systems 
function on installations. What proportion of these systems are paper-
based, versus computer-based? I am aware that the Army has been 
conducting demonstration programs for web-based Environmental 
Management Information Systems. How are the web-based systems 
progressing, and how do they compare to the paper-based systems? What 
are the prospects for utilizing web-based Environmental Management 
Systems at all DOD facilities?
    Secretary Beehler. An Environmental Management System (EMS) is a 
process for analyzing and improving environmental aspects of 
operations. EMS is a formal framework for integrating the consideration 
of environmental issues into the overall management structure at an 
installation. When properly implemented, an EMS identifies the 
environmental aspects of the mission, highlights and prioritizes areas 
of risk, promotes pollution prevention, and tracks progress toward 
environmental goals. Cross-functional teams are formed with members 
from the various organizations on the installation whose activities 
interact with and impact the environment. These teams identify issues 
that are provided to an environmental management council who advise the 
installation commander on the management/prioritization of objectives, 
goals, and targets. Through an EMS, actions are implemented to meet the 
objectives, goals, and targets, and then assessed for effectiveness. 
The management system facilitates correction action for continuous 
improvement. With a successful EMS, an installation evaluates the 
environmental impacts of the various operations (planned and existing) 
on the facility, then establishes objectives, targets, and projects/
programs to improve or mitigate the more `significant' impacts. For 
example, the most significant impact at an `administrative' or `school 
house' installation (e.g., Fort Myer or West Point) might be energy 
use. That installation's EMS objectives and targets would then focus on 
reducing energy use and improving energy efficiency.
    Within DoD, the majority of installations/organizations with an EMS 
use computer based information systems to assist with EMS operation. 
Each Service develops its own methods for implementing EMS within 
overall DoD policies. It is important to remember that the EMS is a 
management process--a way of thinking and operating. An EMS is not 
simply an information system.
    Within the Army, the web-based Environmental Management Information 
Systems (EMIS) fielded in 2005 are fully functional. They have been 
well received by installation personnel and are both improving EMS 
performance and reducing administrative costs. EMIS automates current 
EMS architecture and provides a significant advance in performance and 
management of environmental tracking and task performance and has great 
potential in providing visibility of environmental performance Army 
wide. EMIS is significantly more cost effective than manual EMS systems 
and provides operational and management efficiencies.
    DoD provides overarching guidance on EMS requirements and 
performance, allowing the Services to develop their own implementation 
procedures based on their mission requirements. The prospects are good 
for each Service to use web-based systems to support their EMS. It 
makes good business sense and would further the overall EMS concept by 
aiding in information availability and management. Each Service also 
provides some or all of their EMS training by web-based delivery. DoD 
already uses web-based systems (DENIX, FedCenter, and the Joint 
Services Pollution Prevention Library) to provide EMS information, 
guidance, lessons learned, best practices, and to facilitate EMS status 
reporting.
    Mr. Ortiz. I believe that all known, high-risk contamination sites 
should be speedily cleaned. However, I note that the Department has 
elected to place a priority of funding toward active installations and 
much lower priority toward former defense sites. Can you explain why 
there is a difference in approach?
    Secretary Beehler. There are currently 21,106 active installation 
sites, which account for 68 percent of all Defense Environmental 
Restoration Sites. In FY 2007, the Department allocated 58 percent of 
the funds appropriated to the Department for Defense Environmental 
Restoration Programs towards the cleanup of active installations. By 
contrast, there are 4,654 Formerly Used Defense Sites (FUDS), which 
account for 14 percent of the total inventory. In FY 2007, the 
Department allocated 12 percent of the funds appropriated to the 
Department for the Defense Environmental Restoration Programs towards 
the cleanup of FUDS. The remainder of the funding is provided to 
Components to cleanup BRAC sites. In accordance with Congressionally 
mandated statutory requirements, first priority for funding has gone to 
BRAC sites, while active and FUDS locations are almost equal in 
relative funding.
    In determining progress and allocating funding for FUDS, the number 
and scope of environmental restoration of all FUDS sites must be taken 
into account, including both Installation Restoration Program (IRP) 
sites and Military Munitions Response Program (MMRP) sites. The 
Department is also working diligently to determine the full extent of 
FUDS MMRP cleanup requirements. FUDS MMRP projects are generally more 
complex, higher cost projects, and are typically perceived to present a 
high hazard probability. The actual hazards associated with these sites 
will not be known until the Department has completed site surveys. The 
Department's goals for conducting MMRP preliminary assessments (PAs) 
and site inspections (SIs) are the end of FY 2007 and FY 2010 
respectively. When these surveys are completed, they will improve our 
understanding of the risks associated with MMRP sites and improve our 
ability to identify and prioritize funding requirements and establish 
meaningful performance goals with accurate budget links. In 2003, the 
Department increased FUDS funding by $20 million a year, to fund MMRP 
site surveys, recognizing that these budget requirements should be 
revisited once the surveys are completed. In addition, the Department 
is implementing a number of improvements to the program that will 
result in more efficient cleanups.
    Mr. Ortiz. Mr. Beehler, you indicated in your statement the 
Department has identified over $32 billion worth of environmental 
cleanup requirements. Yet the Department has elected to request $1.8 
billion in funding in fiscal year 2008. Do you believe that the cost to 
complete environmental cleanup is a good metric? Do you believe that 
sufficient funding has been requested in the environmental restoration 
program to reduce existing contamination?
    Secretary Beehler. The combined $1.8 billion requested for fiscal 
year (FY) 2008 in the Defense Environmental Restoration and BRAC 
Accounts is sufficient to fund cleanup requirements identified for that 
year and to make progress in the lengthy remediation process for 
existing contamination.
    The DoD cleanup program cost to complete estimate, currently about 
$32 billion, is for a cleanup process that can take 12 or more years 
from identification of a cleanup site to having a remedy in place (RIP) 
after site characterization, investigation, remedy decision, design, 
and construction. The RIP milestone can then be followed by a three to 
30-year or longer remedial action-operation phase before reaching the 
cleanup objective for the site. Even after reaching the cleanup 
objective, cleanup sites may be subject to periodic review and long 
term management. The cost-to-complete, as a snap shot of the total 
remaining cost of remediation, is a useful metric in managing the 
overall DoD cleanup program with 31,000 sites in different stages of 
the cleanup process. As site level execution occurs, annual funding 
requirements are developed and become the basis for the Department's 
annual budget request. Additional annual funding would not appreciably 
speed up the DoD cleanup program as a whole.
    Mr. Ortiz. If EPA determines that perchlorate should not be 
regulated with a national drinking water standard, what effect will 
that have on DOD's current and future perchlorate cleanup?
    Secretary Beehler. A Maximum Contaminant Level (MCL) is a standard 
for public drinking water suppliers under the Safe Drinking Water Act. 
Cleanup actions to address perchlorate releases to the environment are 
continuing and will continue at DoD sites, with or without a federal 
MCL. The existence of an MCL will not affect whether a cleanup is 
conducted. DoD will use the perchlorate reference dose to indicate if a 
site-specific cleanup is needed. If it is determined that a response 
action is needed, under the Comprehensive Environmental Response, 
Compensation, and Liability Act, the cleanup must comply with all 
requirements that are applicable or relevant and appropriate to the 
site-specific circumstances. If EPA were to promulgate an MCL for 
perchlorate, a State or federal MCL, whichever is more stringent, would 
generally be used as the cleanup level for ground water that may affect 
a drinking water supply.
    Mr. Ortiz. What actions is the Department taking to address the 
risk of inhalation of TCE vapors in air?
    Secretary Beehler. For worker exposures to Trichloroethylene (TCE) 
vapors, the Department's policy is to comply with Occupational Safety 
and Health Administration (OSHA) standards in accordance with section 
19 of the OSH Act (29 U.S.C. 668) and Executive Order 12196. DoD 
monitors and controls its worker exposures to TCE to within the OSHA 
permissible exposure limits.
    DoD is also assessing and addressing inhalation of TCE vapors as 
part of its cleanup program. Vapor intrusion is the migration of 
volatile chemicals from subsurface media into overlying buildings. For 
DoD cleanups that involve a potential TCE vapor intrusion pathway, TCE 
exposures are evaluated during the investigation phase, as part of the 
site-specific human health risk assessment. If the risk assessment 
indicates that an action is required, a diverse set of measures may be 
evaluated to address the risk, although ventilation systems are 
generally placed on buildings themselves to control exposure to 
permissible levels.
    DoD is developing guidance on evaluating potential exposures 
through vapor intrusion and the DoD Components are also developing more 
specific guidance. For example, the Army issued its interim Vapor 
Intrusion guidance on November 6, 2006 directing installations to 
assess and to mitigate unacceptable risks from vapor intrusion into 
existing buildings. DoD representatives are also working with the 
Interstate Technology Regulatory Council to develop specific sampling, 
characterization, and remediation technologies for indoor air.
    Mr. Ortiz. What efforts has the Air Force taken to monitor 
potential problems with disease resulting from exposure to harmful 
chemicals among former civilian employees and military personnel who 
previously worked at Kelly Air Force Base? What is the Department's 
approach for addressing contamination that has spread off of DOD 
installations into adjoining communities? How is this approach being 
implemented at Kelly Air Force Base?
    Secretary Beehler. In April 2005, the Air Force Institute for 
Operational Health (AFIOH) conducted the Case Series Investigation of 
Amyotrophic Lateral Sclerosis (ALS) Among Former Kelly Air Force Base 
Workers. The study resulted from concerns over a possible cluster of 
amyotrophic lateral sclerosis (ALS) among former workers at Kelly Air 
Force Base (AFB). In an attempt to gain insight into the occupational, 
environmental and lifestyle exposure histories of Persons with ALS 
(PALS), the ALS Association-South Texas Chapter (ALSA-STC) and the 
AFIOH collaborated on a case series investigation of persons linked to 
Kelly AFB who reported having ALS. The report concluded: (1) Using 
reported prevalence figures as a comparison, PALS appeared similar to 
other ALS cases and the U.S. adult population for ALS disease course, 
recreational, immunization, infection/trauma, tobacco use, alcohol use, 
and family medical histories. (2) Historically, these cases may have 
been more physically active than other ALS case series and U.S. adults 
overall, perhaps due to a ``healthy worker'' or ``healthy soldier 
effect.'' (3) The limitations of the study, including the highly 
heterogeneous population, amount of proxy report, absence of a control 
group, length of the questionnaire, and use of generalized comparison 
figures, must be considered when discussing and interpreting the 
results.
    The San Antonio Metropolitan Health District, Environmental Health 
and Wellness Center offers free environmental health assessments to 
individuals who have ever lived near the former base for at least one 
year or who have ever worked at the former Kelly AFB. The center refers 
individuals if additional evaluation(s) are needed. In addition, the 
Air Force has partnered with the San Antonio Metropolitan Health 
District, Public Center for Environmental Health to conduct studies 
relating the community health concerns and the environmental program at 
the former Kelly AFB.
    Additionally, individuals who contact the Air Force claiming health 
effects from past on-the-job exposure are referred to the Department of 
Labor Federal Employees Compensation division. Using established 
employment and medical verification, the Department of Labor processes 
these claims.
    Mr. Ortiz. Mr. Beehler, can you explain to me the current state of 
Environmental Management Systems and how the recent Executive Order may 
change the Department's approach for environmental management?
    Secretary Beehler. An Environmental Management System (EMS) is a 
formal framework for integrating environmental issues and 
considerations into the overall management structure at an 
installation. When properly implemented, EMS's identify the 
environmental aspects of the mission, highlight and prioritize areas of 
risk, promote pollution prevention, and track progress toward 
environmental goals.
    DoD has 596 EMS appropriate facilities (506 U.S. and territories, 
90 overseas). Implementing EMS overseas is not required by Executive 
Order (EO) 13423; however, DoD decided to make it a requirement for 
overseas facilities due to the overall benefits of an integrated 
management system. An EMS is ``in-place'' at all 506 U.S. facilities 
and 72 of the overseas facilities. (The term ``in-place'' means that 
the EMS elements have been developed and the plan-do-check-act cycle is 
beginning to function). Full EMS implementation in accordance with EO 
13423 requirements is expected by Fiscal Year 2009. A DoD-wide work 
group was formed to oversee the implementation and operation of EMS's 
across the Department. Its membership includes representatives from the 
OSD staff, various DoD agencies, and the Military Departments.
    The EMS work group is refining EMS guidance to emphasize the cross 
functional nature of the EMS framework, and the inter-relationships 
outside of the environmental community. For example, EMS implementation 
and operation is being written into both the Defense Installations 
Strategic Plan and the AT&L Implementation Plan. In addition, the 
Military Departments have developed EMS policies and training that 
emphasize awareness outside of their environmental directorates, as 
well as the criticality of senior leadership involvement. Together, 
these efforts are beginning to change how environmental management is 
perceived--moving from being a restriction on operations to being a 
mission enabling asset.
    Many aspects of EO 13423 were already underway by the Department 
before the EO became official. DoD is moving towards a more 
sustainability based approach to environmental management by balancing 
mission, environment, and support activities. The EO will strengthen 
this relationship and will foster a closer relationship with the energy 
and transportation communities. These functions have always been 
related to our environmental programs, but they will now complement and 
enhance one another.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS
    Mrs. McMorris Rodgers. A 2002 GAO report (GAO-02-658) indicated 
that the Army Corps of Engineers had performed insufficient 
investigations in determining that certain Formerly Used Defense Sites 
did not require cleanup action. A chief concern of the GAO report was 
the Corps files did not contain evidence that the presence of 
hazardous, toxic and radioactive waste was assessed. The Corps 
determinations covered by the report date back to 1984. One of the 
subjects of this hearing is trichloroethylene or TCE. Because methods 
for testing for TCE in the 1980s were inconclusive at best, and the EPA 
did not adopt a TCE drinking water standard until 1989, does the 
Department of Defense intend to reassess for this hazardous contaminant 
as previous determinations are incomplete? Should public confidence in 
the Corps determinations be increased? If so, why?
    Secretary Beehler. The referenced GAO report (GAO-02-658) concerned 
the methodology used to identify potential hazards at Formerly Used 
Defense Sites (FUDS) based on records, site visits, and the No DoD 
Action Indicated (NDAI) process. The Department addressed GAO's 
recommendations in 2002, acknowledging that in some cases, the FUDS 
project files were not complete or sufficient for an outside agency, 
such as GAO, to identify the ``paper trail'' leading to all decisions, 
but maintained that the Corps had amply demonstrated that decisions 
associated with site evaluation for FUDS eligibility and hazard 
evaluation were made appropriately and in cooperation with regulatory 
agencies. The Corps of Engineers subsequently issued new policies for 
file content and maintenance. In addition, the US Army Corps of 
Engineers (USACE) offered to review `no further action' sites if new 
information about a site became available or at the request of a state 
or EPA.
    The GAO report (GAO-02-658) does not mention trichloroethylene or 
the chemical sampling and analytical methods used for testing for 
trichloroethylene. The methods for testing for trichloroethylene have 
changed little since the 1980's, and still use the same technologies 
and method performance (precision, accuracy, sensitivity, and 
selectivity) capable of detecting concentrations between 1 to 5 parts 
per billion.
    Further, the Superfund Amendment and Reauthorization Act, enacted 
in 1986, institutionalized the requirements for investigation and 
remediation of all chemical contamination that could potentially pose a 
risk to human health or the environment on active installations and 
Formerly Used Defense Sites. As such, previous NDAI determinations are 
considered complete unless new information becomes available about the 
site or site chemicals or if a state or federal regulatory agency 
requests a review of a previous NDAI site.
    Mrs. McMorris Rodgers. I would also like you to address your 
office's working relationship with the Army Corps of Engineers, the 
Environmental Protection Agency and other related agencies. How do you 
work with these entities to address environmental concerns in Formerly 
Used Defense Sites? Is there a review process for past determinations 
as new environmental concerns emerge? I appreciate the Department's 
work to address environmental issues resulting from important 
Department activities, but I hope that some isolated concerns are not 
neglected as we learn more about environmental hazards and possible 
connections to the Department of Defense.
    Secretary Beehler. The Secretary of the Army is designated as the 
DoD Executive Agent for the Formerly Used Defense Sites (FUDS) program. 
As such, the Department of Defense develops policy and oversees the 
FUDS program, the Secretary of the Army manages the program, and the 
U.S. Army Corps of Engineers (USACE) executes environmental restoration 
activities. With regard to relationships with regulatory agencies, DoD 
policy requires substantive involvement of the US Environmental 
Protection Agency (EPA) and state regulatory agencies, current and 
prospective federal land managers, other federal agencies, states, 
local agencies, and tribes throughout the environmental restoration 
process. USACE is required to take proactive steps to identify and 
address issues of concern to all stakeholders, including EPA.
    Over the past six years, the Department of Defense, the Army, and 
USACE worked with regulatory agencies to further improve overall 
coordination on FUDS. Through that effort, USACE developed statewide 
management action plans with states and EPA to reconcile cleanup 
priorities and revised policy and guidance to ensure that each phase of 
FUDS cleanups is coordinated with regulatory officials. In addition, 
USACE offered to review `no further action' sites if new information 
about a site became available or at the request of a state or EPA. The 
2003 General Accounting Office report, GAO-03-146, ``ENVIRONMENTAL 
CONTAMINATION: DoD has Taken Steps to Improve Cleanup Coordination at 
Former Defense Sites, but Clearer Guidance is Needed to Assure 
Consistency'', recognized USACE efforts, finding that they had improved 
overall coordination with regulatory agencies.
    Mrs. McMorris Rodgers. My office has been coordinating with the 
Army Corps of Engineers for several months regarding a Nike battery 
site near Fairchild AFB in Spokane, WA. This site was reviewed by the 
Corps in 1989 but the EPA recently raised concerns about the accuracy 
of the determination and thoroughness of the investigation. The Corps 
advised that they would issue a report revisiting in February of this 
year. The report is still pending and the response from the Corps upon 
inquiry has been, ``I'm sorry that I have been unable to reply to your 
message before now. I would like to assure you that we are in the final 
stages of the final review of the document for release ability. I 
really do not have any more information to provide at this time.'' I 
realize that you are not the Corps, but they are not in attendance. 
This is an important issue that has affected the lives of many people 
that I represent in Eastern Washington. I would appreciate any insight 
you could offer as to the reason for the delay.
    Secretary Beehler. The Corps of Engineers completed the Site 
Ownership and Operational History (SOOH) report for former Nike Battery 
87 near Fairchild AFB, Washington in July 2007. That report was 
provided to EPA Region 10 and Representative McMorris's staff on July 
18, 2007. The Corps of Engineers experienced a delay in completing the 
report due to additional studies conducted in order to better 
understand the relationship between the site operational practices and 
physical characteristics of the former Nike Battery 87, and EPA 
sampling results. The letter accompanying that report summarized the 
results of the investigation, and the Army's consequent position 
regarding the Department's responsibility for contaminants found in the 
vicinity of former Nike Battery 87.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MCKEON
    Mr. McKeon. Perchlorate moves faster through groundwater than most 
contaminants, suggesting that groundwater (which is often drinking 
water in Southern California) contamination remediation needs to be 
implemented in the early stages of the site investigation and clean up 
process. (a) What special requirements will be imposed on DoD to ensure 
that groundwater supplies will be given a high priority? (b) In the 
event that drinking water supplies are threatened or contaminated, will 
DoD make provisions for replacement drinking water until a containment/
abatement plan is implemented?
    Secretary Beehler. (a) DoD has a published relative risk ranking 
system that prioritizes response actions at sites according to the 
widely accepted risk factors of source, pathway, and receptor. 
Groundwater paths, especially those with human receptors, would 
typically be ranked high. (b) Where necessary, to prevent unacceptable 
exposures from DoD contamination, DoD has provided, and will provide, 
replacement drinking water.
    Mr. McKeon. The executive branch has been an advocate of a 
reference dose (a level often used in establishing drinking water 
standards) concentration for perchlorate ingestion/consumption, which 
is higher than California and other states. Will DoD be required to use 
the lower state standards in developing their risk based clean up 
plans?
    Secretary Beehler. Based on the preface to the question, there 
appears to be confusion between a reference dose (risk based health 
standard) and a drinking water regulation such as a Maximum Contaminant 
Level (MCL) under the Safe Drinking Water Act. It is important that the 
difference be fully understood. The reference dose is the amount of a 
contaminant per unit of body weight per day from all sources that over 
a long period is not expected to cause unhealthful effects. The 
National Academy of Science and EPA have both indicated that the 
reference dose of 0.0007 mg/kg/day for perchlorate is protective for 
humans, including sensitive subpopulations such as pregnant woman and 
infants. In setting a drinking water regulation, regulators consider a 
number of other factors including the quality and extent of information 
and the relative source contribution of the contaminant between food 
and water. For example, if a regulator determines that there is a need 
to account for perchlorate intake from food, the final drinking water 
standard may be adjusted downward proportionately. This explains 
differences in the reference dose and drinking water standard. It's 
important to understand that an MCL is applicable to public drinking 
water suppliers. For cleanup, DoD will use the perchlorate reference 
dose to indicate if a site-specific cleanup is needed. If it is 
determined that a response action is needed, under the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA), the 
cleanup must comply with all requirements that are applicable or 
relevant and appropriate to the site-specific circumstances. If a State 
has promulgated a drinking water standard (i.e., MCL) for perchlorate, 
that value is likely to be viewed as a ``relevant and appropriate 
requirement'' and thus the groundwater cleanup level for sites in that 
State. Applicable or relevant and appropriate requirements are 
determined on a site-specific basis.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. The military build-up on Guam will cost over $10 
billion dollars over a multi-year period; undoubtedly, the build-up on 
island will raise serious questions about the environmental impact of 
constructing new facilities for 8,000 Marines and their families. In my 
opinion, this build-up also affords the Department of Defense an 
opportunity to ensure that old installations, which may be re-used for 
the incoming forces, are free from harmful contaminants. According to 
some reports, there is a $32 billion backlog of identified 
environmental remediation; can you describe what steps are being taken 
to identify any environmental remediation that may be needed on Guam? 
Are there any sites, which for example may be used for housing or for 
training, that need substantial environmental clean-up and mitigation 
work? Moreover, has the cost of clean-up and remediation been factored 
into the overall estimate for the cost of the build-up?
    Secretary Beehler. The Department of the Navy (DON) is addressing 
all contaminated sites on its installations through the Defense 
Environmental Restoration Program. To date, DON has invested over $3 
billion to cleanup sites across the department, with emphasis placed on 
addressing the higher risk sites first. The estimated cost to complete 
all DON sites is $2.14 billion. There are 112 remediation sites on 
Guam, of which only 17 require further action. DON has invested just 
under $190 million investigating and remediating these sites, with a 
cost to complete the remaining sites of just over $40 million. All 
remaining sites will have a remedy in place by 2014, which is prior to 
completion of the build-up construction phase. As the military build-up 
plans progress, the status and condition of the remaining cleanup sites 
will be factored into these plans. DON will ensure that all remediation 
is completed to be protective of human health and the environment to 
support the build-up, including housing, training, and other 
operational needs.
    Ms. Bordallo. Additionally, the Joint Guam Program Office completed 
its initial scoping meetings a few months ago and has begun to draft 
the Environmental Impact Statement (EIS). Can you describe what steps 
are being taken to incorporate the lessons learned about emerging 
contaminants at Department of Defense installations into the EIS for 
Guam?
    Secretary Beehler. The Department of the Navy is working closely 
with the Office of the Secretary of Defense to identify and share 
lessons learned regarding emerging contaminants. The analyses conducted 
during an Environmental Impact Statement (EIS) do not specifically 
address emerging contaminants. However, the emerging contaminants 
lessons learned will be incorporated into the planning, design, 
material selection, and construction for the build up on Guam.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. So I just want to ask at the outset, Mr. Beehler, if 
you have any direct knowledge of the cleanup efforts at the Iowa Army 
Ammunition Plant. I know there are many facilities around the country, 
but do you have any specific information on this?
    Secretary Beehler. In 1941, the Army constructed the Iowa Army 
Ammunition Plant (IAAP) in Middletown, Iowa to load, assemble and pack 
various conventional ammunition and fuzing systems. During operations, 
industrial process wastewater and by-products were disposed at the 
installation. Department of Defense (DoD) cleanup sites include surface 
impoundments, former production disposal areas, landfills, and a fire 
training pit. Soil and groundwater contamination resulted primarily 
from historic practices of disposal of explosives and heavy metal-
containing wastes directly onto the soil. The installation also 
identified contamination by volatile organic compounds such as 
trichloroethylene. Perchlorate was detected at one location in 2000, 
however, follow-on sampling did not confirm its presence.
    The Environmental Protection Agency (EPA) placed IAAP on the 
National Priorities List in August 1990, and in December 1990, the 
installation and EPA signed a Federal Facilities Agreement (FFA) that 
identified specific sites and cleanup schedules. DoD cleanup actions 
taken include treatment and removal of contaminated soil, capping 
landfill cells, groundwater treatment and connecting local residences 
to a public water supply. Funding through FY 2006 has been over $95 
million. Evaluations related to past use of the property by the Atomic 
Energy Commission have been conducted and three sites are being 
addressed under the separate Department of Energy Formerly Utilized 
Sites Remedial Action Program (FUSRAP).
    In 2001, DoD added a new category of sites to its Defense 
Environmental Restoration Program--the military munitions response 
program (MMRP). In FY 2004, the Army identified MMRP sites at IAAP. 
Site inspections to evaluate the extent of munitions and level of risk 
continued through FY 2007. The Army reached agreement with EPA to add 
these munitions sites to the FFA so that they could be addressed 
according to the munitions response site prioritization protocol 
regulation and the risk they present.
    Groundwater cleanup activities and the MMRP at IAAP are expected to 
continue to FY 2017 with a remaining cost to complete of more than $20 
million. Groundwater treatment system operation will continue beyond 
2017.
    The Army is working with the local community to keep it informed 
and receive input into the cleanup decision process. In FY 1997 the 
Army established a Restoration Advisory Board (RAB) which meets 
regularly.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Taylor. What have we spent on environmental restoration at 
bases that have been closed by previous rounds of BRAC to date?
    Secretary Beehler. Through the end of FY 2006, $9.12 billion has 
been spent for site level environmental restoration at all BRAC 
properties, including BRAC 2005 installations. The funding came from 
the BRAC Accounts and the Defense Environmental Restoration Account.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. Do you have any kind of ballpark estimate of how sites 
exist nationwide? How many are going through remediation at the present 
time?
    Secretary Beehler. DoD has a number of sites with detectable 
concentrations of perchlorate. A summary of sampling results was 
provided in the written statement. Detection does not necessarily mean 
there is a need to remediate. After sampling and assessing the risks, 
many of the DoD sites with perchlorate detections have been determined 
not to require remedial actions. DoD sampling has also demonstrated 
that, for the most part, contamination was confined to our bases. The 
Department is taking appropriate actions for perchlorate releases. 
These actions include sampling, assessing risks to human health, 
coordinating with regulators and, where necessary, taking remedial 
actions. The remedial actions are being conducted under the Defense 
Environmental Restoration Program (DERP) in coordination with 
regulators.
    The May 2005 U.S. Government Accountability Office (GAO) report 
noted that approximately 400 sites had been identified as having 
perchlorate. That GAO Report on perchlorate noted that 65 percent of 
the sites containing perchlorate were DoD, National Aeronautics and 
Space Administration (NASA), or defense related activities but did not 
differentiate among the activities or site owners. The prevalence of 
DoD sites reported is a manifestation of the fact that DoD has been 
sampling for perchlorate for about a decade and it is this information 
that makes up the majority of data available to regulators. Thus, 
mathematically, DoD and NASA would be expected to comprise a high 
percentage of the sites sampled. Again, perchlorate detections do not 
equate with the requirement to remediate.
    DoD's cleanup database cannot ascertain every site where 
perchlorate is part of the remediation. This is because perchlorate is 
often mixed with other more significant contaminants and as such is 
often assessed and remediated in conjunction with these other 
contaminants. Nevertheless, we are aware of the following sites with 
completed or ongoing perchlorate remediation:

      <bullet>  Massachusetts Military Reservation (MMR). Removal 
actions have been completed for contaminated soils. Groundwater 
contaminated with RDX (Cyclotrimethylene-trinitramine) and perchlorate 
is being remediated through a groundwater treatment system which is in 
place and operating. All investigations and actions were fully 
coordinated with Environmental Protection Agency (EPA) Region 1 and the 
State of Massachusetts.

      <bullet>  Longhorn Army Ammunition Plant, Texas. A fluidized bed 
reactor was added to a TCE (Trichloroethylene) groundwater treatment 
system in 2001 to remove perchlorate from an effluent. There is no 
groundwater use and actions were taken to protect Caddo Lake (drinking 
water supply). Soil covers were placed over two soil sites which 
contained high perchlorate concentrations to prevent runoff into 
streams. Final Records Of Decisions (RODS) are being developed to 
address remaining soil contamination through soil removal and disposal. 
All actions have been fully coordinated with EPA Region 6 and Texas.

      <bullet>  Naval Weapons Industrial Reserve Plant (NWIRP), 
McGregor, Texas. At McGregor, the Navy completed a ROD. An in-situ 
biological treatment system is treating perchlorate in groundwater and 
soil; this is the first--and world's largest--full-scale bio-wall 
application for groundwater remediation of perchlorate and volatile 
organic compounds. Recent groundwater data shows a marked decrease in 
the amount of perchlorate in groundwater. In fact, last October, the 
NWIRP McGregor became the very first U.S. Naval facility to receive a 
Ready for Reuse determination from EPA. This verifies that 
environmental conditions at the property are protective of human health 
and the environment for its current and future commercial, industrial 
and agricultural uses.

      <bullet>  Former Naval Surface Warfare Center (NSWC), White Oak, 
Maryland. NSWC-White Oak has a number of completed RODs. The RODS 
primarily address other key contaminants, but the treatment systems put 
in place under the RODs are also addressing perchlorate. All actions 
have been coordinated with EPA Region 3 and Maryland, and both agencies 
concurred with the remediation goal for perchlorate.

      <bullet>  Redstone Arsenal, Alabama. Perchlorate was detected in 
soil and groundwater. A Remedial Investigation report was completed in 
July 2005. A Feasibility Study is underway to analyze remedial options. 
A health risk evaluation was conducted for surface water off-base, 
which concluded that there was no health risk to recreational users and 
residents. Sampling showed non-detectable levels in the Tennessee 
River. Drinking water is supplied by the municipal water system. There 
is no human consumption of groundwater either on-base or off-base, and 
thus no threat to human health. The Arsenal is working closely with EPA 
and the Alabama Department of Environmental Management (ADEM).

      <bullet>  Vandenberg Air Force Base (AFB), California. 
Perchlorate was detected in groundwater, but drinking water supplies 
have not been affected. The Air Force initiated a pilot treatment 
process that uses injections of lactate and a dechlorinating agent to 
groundwater. The pilot study was successful, and both TCE and 
perchlorate were removed to non-detectable levels in one month. 
Planning is underway to scale up the pilot treatment process to 
complete TCE and perchlorate removal at this site.

    Edwards AFB, California. Perchlorate was detected in soil and 
groundwater. Drinking water supplies have not been affected. In May 
2003, Edwards AFB implemented a pilot project/treatability study to 
evaluate the effectiveness of using ion-exchange technology for 
removing perchlorate from groundwater. As of January 2007, the system 
has treated 32.1 million gallons and removed 133.7 pounds of 
perchlorate from the groundwater. This pilot treatment system continues 
to operate. Also, a treatability study that examined the effectiveness 
of flushing to remove perchlorate from soil at Edwards AFB demonstrated 
almost complete removal of perchlorate from the soil column.

                                  <all>

</pre></body></html>
